 


 
    Office
         e of Insp
              I pector Geeneraal 
 
 
 
 
 
 
 
 
 
          FY 2013 Financcial State
                                 ement
              Managemeent Letterr
 
 
                    A14-0
                        01A
 
 
 
 
 




 
 
 
 
              Ja
               anuary 2014

 
 
 
 

    FEDER
        RAL MAARITIM
                   ME CO
                       OMMISSSION

 
 
 

          Lastly, the recommendation for comment # 4 relates to the lack of a contingency
    plan to ensure continuity of operations in cases of emergency. Management agrees this is
    an issue and has plans to address the deficiency. The status of this issue will be reviewed
    during the OIG’s FY 2014 Federal Information Security Management Act evaluation.
 
          The OIG appreciates the attention and cooperation by FMC management and staff.
    I am happy to meet with you to discuss these issues, and I can be reached at (202) 523-
    5258.

Attachment

CC: 	 Office of the Managing Director
      Office of Budget and Finance
      Office of Information Technology

                                                   
          MANAGEMENT LETTER 

ON THE FY 2013 FINANCIAL STATEMENT AUDIT 

    OF FEDERAL MARITIME COMMISSION 





                                  MANAGEMENT CONSULTANTS &

                                 CERTIFIED PUBLIC ACCOUNTANTS

  MANAGEMENT CONSULTANTS &

 CERTIFIED PUBLIC
               IC ACCOUNTANTS




December 30, 2013

Federal Maritime Commission
Washington, D.C.


We have audited the financial statements of the Federal Maritime Commission (the Commission), as
of and for the years ended September 30, 2013 and 2012, and have issued our report thereon dated
December 2, 2013. In planning and performing our audit of the financial statements of the
Commission, we considered internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing an opinion on the financial statements.

During the course of our audit, we had the opportunity to observe various accounting and operating
matters, as they relate to the Commission. Based on our audit, we have additional observations and
recommendations. Even though, the matters described in this management letter are not considered
significant deficiencies, as defined by the American Institute of Certified Public Accountants, these
matters are still important in the overall internal control structure of the Commission and require
management’s attention.


                                    Prior Year Findings - Updated

There were no findings and recommendations in the prior year.


                                       Current Year Comments

# 1: The Commission’s Office of Budget and Finance does not have access to the Internet
Payment Platform (IPP) in order to monitor invoice and payment approval activities of the
Contracting Officer’s Representatives and Bureau of the Public Debt’s Administrative
Resource Center.

The Bureau of the Public Debt’s (BPD) Administrative Resource Center (ARC) uses the U.S.
Treasury Financial Management Service's IPP, an electronic invoice processing solution
(mandated for all Treasury Bureaus by the Department of Treasury), to process invoices and
make payments on behalf of the Commission. IPP is a web-based electronic invoicing and
payment information system that is hosted by the Federal Reserve Bank of Boston. Purchase
Orders are interfaced from the Oracle system, maintained by ARC, to IPP. Invoices are
submitted in IPP by either the vendor or ARC personnel, and are routed to the Commission’s
delegated Contracting Officer’s Representatives (CORs) for approval. Upon approval, the
invoice is scheduled for payment. Payment is then made by ARC when due.

The Commission’s Chairman has delegated administrative funds control to the Director, Office
of Budget and Finance (OBF), through Commission Order 77, Administrative Control of Funds.
The Director is therefore responsible for approving, certifying, or otherwise authorizing those
actions dealing with the use of funds made available to the Commission.

           1400 Eye Street, NW, Suite 425, Washington, DC 20005 Tel 202-296-7101 Fax 202-296-7284
During our fieldwork, we noted that invoices submitted in IPP, by either the vendor or ARC
personnel, were routed to the CORs for approval; and were subsequently scheduled for
payment, and then paid without being reviewed by the OBF. We noted that OBF has
established limits for purchase orders in the Oracle system, and have adequate controls in place
to ensure that those limits are not exceeded. However, the lack of review by OBF, of invoices
approved for payment by the CORs on a routine basis, puts the Commission at risk of making
payments that should not have been authorized. The IPP, as presently set-up, without access by
OBF, does not allow for adequate monitoring of the payment approval activities of the CORs
prior to payments being made.

Recommendation: We recommend that the Director of OBF establish a procedure to routinely
monitor the payment approval activities of the CORs, prior to payments being made by the
Commission.


# 2: Penalties and Fines levied by the Commission were recorded as Accounts Receivable,
rather than Custodial Activity.

Accounts receivable are legally enforceable claims for payment to an entity by its customers or
clients for goods supplied and/or services rendered in execution of the customers’ or clients’
orders. Penalties and fines, on the other hand, are financial impositions by a government agency
as restitution for wrongdoing. The wrongdoing is typically defined by a codification of
legislation, regulations, or decrees.

Although the Commission collects remittances for user fees and penalties, the Commission is not
authorized to offset any of its budget authority by utilizing these funds. The collections are
deposited directly into the Treasury General Fund, and captured in the Statement of Custodial
Activity. As such, the Commission is considered an administrative agency, collecting funds for
another government entity or the General Fund of the United States. As a collecting entity, the
Commission is required to measure and report cash collections and refunds. These collections are
required to be reported as custodial activity on the “Statement of Custodial Activity.” The type of
cash collected is for fines, penalties, and administrative fees. A small portion is for interest on
the past due fines. Another part of the custodial activity is the application fees for licenses issued
to qualified Ocean Transportation Intermediaries (OTI’s) in the U.S., Commission reviews,
petitions, status changes, and special permission fees.

During our fieldwork, we noted that the Commission recorded penalties, fines, and forfeitures as
receivables on its books of accounts, rather than custodial activity. The matter was brought to
the attention of the Commission’s Office of Budget and Finance (OBF), and Bureau of the
Public Debt’s Administrative Resource Center (ARC), and was promptly rectified. We
commend the management of OBF, and ARC, for taking immediate action to properly
reclassify the penalties, fines, and forfeitures.

Recommendation: We are not making any recommendation, due to the actions already taken by
OBF and ARC. We, therefore, consider this comment closed.




                                                  2

# 3: Comprehensive contract database is not maintained to facilitate tracking of open
contracts/obligations for timely contract/obligation closeout.

Commission Order 112, Procurement, establishes standards and procedures for the
procurement of materials, equipment, and services for the Commission; and serves as internal
agency guidance for all applicable Commission acquisitions, in accordance with the Federal
Acquisition Regulation (FAR), and as set forth in Titles 41 and 48 of the Code of Federal
Regulations. These standards and procedures are promulgated to ensure that materials,
equipment, and services are obtained efficiently, economically, and in compliance with the
provisions of the FAR, and all applicable Federal laws.

Commission Order 112 also charges the Director, Office of Management Services (OMS), as the
principal Contracting Officer for the Commission, with the overall responsibility for managing
the Commission’s procurement program. Explicit in this responsibility is compliance with FAR.
FAR, Subchapter A- General, Part 4, Administrative Matters, Subpart 4.6- Contract Reporting,
requires the head of a contracting activity to develop a monitoring process to ensure timely and
accurate reporting of contractual actions to the Federal Procurement Data System (FPDS).
Implicit in this requirement is the need for a comprehensive database to track contracts in open,
completed, or closeout status. The database will also facilitate efficient use of the Commission’s
resources; since obligated funds remaining on contracts in completed or closeout status can be
easily identified, de-obligated, and re-programmed, as may be considered necessary.

During our fieldwork, we noted that OMS did not maintain a database at a level necessary to
fully support the requirements of FAR, as discussed in the preceding paragraph. Although
OMS currently tracks open contracts and obligations, manually; the manual process does not
allow for timely identification of contracts that meet the criteria for funds de-obligation or
closeout.

Recommendation: We recommend that the Director of OMS develop a comprehensive contract
database to facilitate tracking of open contracts/obligations, for timely funds de-obligation or
closeout.


# 4: The Commission has not developed a contingency plan to ensure continuity of operations
in cases of emergency.

In planning and performing our audit of the financial statements of the Commission, we
obtained and reviewed reports issued by other agencies to enable us to adequately assess risks
related to the audit. During this process, we reviewed an FMC Office of Inspector General
report titled “Evaluation of the FMC’s Compliance with the Federal Information Security
Management Act FY 2012,” report number A13-03, December 2012. Comments therein from
the Commission’s Office of Inspector General indicated that a disaster recovery plan has not
been developed and put into operation by the Commission. Inquiry of management during our
audit confirmed that the condition, as noted in the report, still exists and is unresolved.

Information technology (IT) and automated information systems are vital elements in most
business processes. Because these IT resources are so essential to an organization’s success, it is
                                                3

critical that the services provided by these systems are able to operate effectively, without
excessive interruption. Contingency planning supports this requirement, by establishing thorough
plans and procedures, and technical measures that can enable a system to be recovered quickly
and effectively following a service disruption or disaster. Contingency planning refers to interim
measures to recover IT services following an emergency or system disruption. Interim measures
may include the relocation of IT systems and operations to an alternate site; the recovery of IT
functions, using alternate equipment; or the performance of IT functions, using manual methods.

National Institute of Standards and Technology (NIST) Special Publication 800-34, Rev. 1,
Contingency Planning Guide for Federal Information Systems, provides instructions,
recommendations, and considerations for government IT contingency planning, as noted in the
report.

Recommendation: We recommend that the Director, Office of Information Technology, follow
the recommendation of the Office of Inspector General and develop and put into operation, a
contingency plan that is consistent with the requirements of NIST 800-34.


While this report is intended solely for the information and use of the management of the
Federal Maritime Commission, it is also a matter of public record; and its distribution is,
therefore, not restricted.



Regis & Associates, PC
Washington, DC




                                                4

UNITED STATES GOVERNMENT                                        FEDERAL MARITIME COMMISSION

 Memorandum

TO        :   Inspector General                             DATE: January 29, 2014


FROM      :   Managing Director


SUBJECT :     Management Letter on the FY 2013 Financial Statement Audit



               This is offered in response to the Management Letter on the FY 2013 Financial
       Statement Audit of the Federal Maritime Commission prepared by Regis & Associates,
       PC, dated December 30, 2013. Regis & Associates states that “the matters described in
       this management letter are not considered significant deficiencies,” yet “these matters are
       still important in the overall internal control structures of the Commission and require
       management’s attention.”

              FMC management has reviewed and considered each of the four comments
       offered. Comment number 2 did not include a recommendation and is not responded to
       herein. Comments 1, 3, and 4, and their recommendations, are responded to below.


       Comment #1: The auditor commented that the Commission’s Office of Budget and
       Finance (OBF) does not have access to the Internet Payment Platform (IPP) in order to
       monitor invoice and payment approval activities of the Contracting Officer’s
       Representatives (CORs) and the Bureau of the Public Debt’s Administrative Resource
       Center. It was recommended that the Director, OBF, establish a procedure to routinely
       monitor the payment approval activities of the CORs, prior to payments being made by
       the Commission.

       Response: FMC management is of the opinion that monitoring of payment approval
       activities by the OBF prior to payments being made is unnecessary. IPP system and
       process controls are in place to prevent payments from exceeding the amount of funds
       obligated for specific purchase orders. Agency CORs receive training and certification in
       such areas as invoice review and approval prior to receiving their COR delegation letter
       from the agency Contracting Officer. Further, payments for commercial vendors only are
       processed through the IPP. At the FMC, less than 5% of our annual appropriation is
       typically spent on commercial procurements. Additionally, FMS (formerly BPD) will
       soon begin a post payment audit process where they will be auditing a sample of FMC
       invoices each month and issuing result findings. This will provide useful information on
       the performance of the FMC’s CORs.
Comment #3: The auditor commented that a comprehensive contract database was not
maintained to facilitate tracking of open contracts / obligations for timely contract /
obligation closeout. It was recommended that the Director, OMS, develop a
comprehensive contract database to facilitate the tracking of open contracts and/or
obligations for timely funds deobligation or closeout.

Response: Currently, the agency Contract Specialist maintains a status report in the form
of an Excel spreadsheet of all contract actions, including purchase orders, contracts and
interagency agreements, which includes close-out dates and notes on OMS/Procurement
contact with CORs and program offices. It is understood by OMS that a comprehensive
database could facilitate obligation closeouts and enhance the ability to prepare for
upcoming obligation requirements, such as the exercising of contract options and
obligation of additional funds after a period of temporary funding, such as the Continuing
Resolution. However, until such a database is created, OMS will continue to provide
status of all contract actions via the spreadsheet. As the agency develops and implements
its Enterprise Content Management system (ECM), an appropriate application will be
prepared to electronically facilitate and monitor the contracting requirements of the
agency. No immediate modification to the current system is projected.



Comment #4: The auditor commented that the Commission has not developed a
contingency plan to ensure continuity of operations in cases of emergency. It was
recommended that the Director, OIT, follow the Office of Inspector General’s
recommendation to develop and put into operation a contingency plan consistent with the
requirements of NIST 800-34.

Response: Management is aware of this requirement and, as indicated in the agency’s
response to the FY 2013 FISMA audit, necessary documentation will be completed
during FY 2014 to acknowledge and accept this risk. Management is aware of the need
for a finalized contingency plan (COOP) and will make efforts to effectuate such a plan
as resources are made available. This matter will be addressed in the future with the
development and implementation of the agency’s Disaster Recovery Plan.




                                            Vern W. Hill

cc: 	   Office of Budget and Finance
        Office of Management Services
        Office of Information Technology
        Office of the Chairman
